<html>
<title> - NOMINATIONS OF JEFF T.H. PON, MICHAEL J. RIGAS AND EMILY J. MURPHY</title>
<body><pre>[Senate Hearing 115-430]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-430

  NOMINATIONS OF JEFF T.H. PON, MICHAEL J. RIGAS, AND EMILY J. MURPHY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

         NOMINATIONS OF JEFF T.H. PON TO BE DIRECTOR, OFFICE OF
          PERSONNEL MANAGEMENT, MICHAEL J. RIGAS TO BE DEPUTY
  DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT, AND EMILY W. MURPHY TO BE 
             ADMINISTRATOR, GENERAL SERVICES ADMINISTRATION

                               __________

                            OCTOBER 18, 2017

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-097 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>         
        
        
       
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
              David N. Brewer, Chief Investigative Counsel
               Margaret E. Daum, Minority Staff Director
               Donald K. Sherman, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Carper...............................................    12
    Senator Tester...............................................    19
    Senator Heitkamp.............................................    21
    Senator Lankford.............................................    24
    Senator Hassan...............................................    27
    Senator Hoeven...............................................    29
    Senator Harris...............................................    32
Prepared statements:
    Senator Johnson..............................................    37

                               WITNESSES
                      Wednesday, October 18, 2017

Jeff T.H. Pon, Ph.D., to be Director, Office of Personnel 
  Management
    Testimony....................................................     4
    Prepared statement...........................................    39
    Biographical and financial information.......................    42
    Letter from the Office of Government Ethics..................    60
    Responses to pre-hearing questions...........................    63
    Responses to post-hearing questions..........................    89
    Letters of Support...........................................   109
Michael J. Rigas, to be Deputy Director, Office of Personnel 
  Management
    Testimony....................................................     6
    Prepared statement...........................................   112
    Biographical and financial information.......................   115
    Letter from the Office of Government Ethics..................   130
    Responses to pre-hearing questions...........................   133
    Responses to post-hearing questions..........................   158
Emily W. Murphy, to be Administrator, General Services 
  Administration
    Testimony....................................................     9
    Prepared statement...........................................   165
    Biographical and financial information.......................   169
    Letter from the Office of Government Ethics..................   198
    Responses to pre-hearing questions...........................   201
    Responses to post-hearing questions..........................   230
    Letters of Support...........................................   243

 
   NOMINATIONS OF JEFF T.H. PON, MICHAEL J. RIGAS AND EMILY J. MURPHY

                              ----------                              


                      WEDNESDAY, OCTOBER 18, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, 
and Harris.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    We are meeting today to consider the nominations for the 
Director and Deputy Director of the Office of Personnel 
Management (OPM) and the Administrator for the General Services 
Administration (GSA).
    The Director of Office of Personnel Management is the human 
resources (HR) and personnel policy manager for the Federal 
Government and oversees a workforce of over 5,800 employees and 
a budget of about $280 million. The Director is responsible for 
issuing governmentwide policies and guidance for recruiting, 
hiring, developing, and retaining individuals for Federal 
employment.
    The Director is also responsible for the administration of 
Federal Employee Benefits Programs (FEBP), including 
retirement, health insurance, life insurance, and long-term 
care insurance.
    The Director will also play a role in agency 
reorganizations under the President's Executive Order (EO) by 
assisting agencies with authorizations for personnel pay and 
hiring flexibilities.
    The Office of Personnel Management faces many challenges. 
The agency has been without a confirmed Director for more than 
2 years and without a Deputy Director for more than 5 years at 
a time when it is still recovering from the unprecedented 
breach of data of 22.1 million current and retired Federal 
employees by foreign operatives.
    The Civil Service Reform Act (CSRA) is approaching its 40th 
anniversary, and there are concerns about whether the personnel 
systems established to protect merit-based employment are 
adapting to today's workforce needs.
    The Office of Personnel Management also must stabilize and 
reduce backlogs in the processing of retirement claims and 
security clearance background investigations.
    Other positions, the Administrator of GSA is responsible 
for implementing shared services governmentwide, constructing 
and managing government properties and leases, and assisting 
agencies in procuring goods and services in a cost-effective 
manner. This role requires oversight of roughly $53 billion in 
annual procurement and 371 million rentable square feet, 
including 8,300 buildings and a fleet of 210,000 vehicles. In 
addition, the Administrator oversees a workforce of around 
11,500 employees and a $24 billion budget.
    The Administrator plays a central role in two government 
operations that have long been plagued with operational 
challenges--information technology (IT) acquisitions and 
operations and real property management.
    While Congress has recently enacted legislation to assist 
the agency with real property management, there are millions of 
square feet of property leases soon to expire and major 
construction projects that are behind schedule and over budget.
    Meanwhile, the Federal Government spends more than $80 
billion annually on information technology, with a large 
portion going to operation and maintenance of dangerously old 
systems. Contributing to the problem is a complex and 
inflexible acquisition process.
    With the Federal Acquisition Regulation (FAR) nearing 2,000 
pages--I just got a copy of it right here. And by the way, if 
you are making acquisitions for one of the Departments, for 
example, Defense, you add that little book as well. It is clear 
we have become pennywise but pound foolish when it comes to 
overseeing how the government buys goods and services.
    So I want to welcome the nominees. I know I see some family 
members here. During your testimony, I would encourage you to 
introduce them. We welcome your family members and friends as 
well. We appreciate your willingness to serve this Nation in 
these important positions.
    And with that, I will turn the microphone over to Senator 
McCaskill for comments.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman. I appreciate 
you holding the hearing for these three nominees, and I 
especially appreciate your willingness to serve in government.
    This is a tough time to serve in government because we have 
record-high cynicism and negativity about people who serve in 
the public sector. I think all of you appreciate that a lot of 
that judgment is unfair. That the vast majority of people who 
choose to serve in the public sector are doing so because they 
are committed and hardworking and have integrity, and 
unfortunately, I think there are way too many people now that 
are avoiding public service because of the negativity that is 
out there.
    So I am especially appreciative when people who are very 
qualified and could make lots of money in the private sector 
decide that they want to give their time, effort, and ingenuity 
to a government, and so thank all three of you for that.
    We have the OPM today and we have GSA.
    The General Services Administration was established in 1949 
to help support the basic functioning of Federal agencies. 
Today, as our nominee knows, GSA manages acquisition of Federal 
real property, supplies products, and communications for U.S. 
Government offices; provides transportation and office space to 
Federal employees; and develops governmentwide cost-minimizing 
policies, among other many important responsibilities.
    In September, President Trump nominated Emily Murphy to 
serve as the next GSA Administrator. I will have an opportunity 
to say more about Ms. Murphy when I introduce her. For now, I 
will just say I have been very impressed by her record of 
public service and encouraged by my conversations with Ms. 
Murphy regarding her priorities in her future role.
    I also look forward to hearing from the President's nominee 
to lead the Office of Personnel Management--Dr. Jeff Pon to 
serve as Director and Michael Rigas to serve as Deputy 
Director.
    OPM oversees all policies and rules surrounding the hiring, 
training, performance evaluation, and overall management of the 
2.1 million civilian Federal employees across the country.
    It is also important that OPM carry out the Nation's 
Federal workforce priorities such as providing retirement 
benefits and services for all Federal employees and the all-
important background investigation program.
    I hope I will have an opportunity to hear from all three of 
the nominees about some of the serious challenges facing our 
workforce.
    I also want to specifically mention that Dr. Pon and I 
talked about two items of concern to me. One is the background 
checks and how we are standing up the ability to do this in a 
more comprehensive and efficient way and the challenges we face 
with now an idea to pull it back to the Department of Defense 
(DOD) after it came over to OPM from DOD, a relatively short 
time ago.
    I also want to make sure we are addressing the fact that 
people are giving their lives to Federal service and deciding 
to retire and waiting in a very long line to get their benefits 
because of the inefficiencies of the retirement system in terms 
of beginning your retirement benefits.
    Also, I would like to see some reform in the Senior 
Executive Service (SES). It was designed to do one thing, and 
frankly, it has not reached that goal. And I think it is time 
we look at it, especially those people who burrowed in at 
agencies with very high salaries, guaranteed bonuses, without 
the kind of flexibility that the system was designed to 
embrace.
    I also want to make sure that we talk about GSA, and there 
are so many issues at GSA that need to be addressed. And I know 
that having had a conversation with Ms. Murphy, she is fully 
cognizant of some of the biggest challenges she is going to 
face.
    So thank you, all three, for being here. I will look 
forward to questioning you.
    I do want to apologize now. I have to go to the White House 
to talk to the President about tax reform in about less than an 
hour. So if I leave during the hearing, please do not consider 
that as any kind of slight of any of the three of you. It is 
just that I have this obligation I have to meet in about an 
hour.
    Thank you very much.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Pon. I do.
    Mr. Rigas. I do.
    Ms. Murphy. I do.
    Chairman Johnson. Please be seated.
    Our first nominee is the nominee to be Director of the 
Office of Personnel Management, Dr. Jeff Pon. Dr. Pon has 
devoted his career to human resources management in both 
private and public sectors. He is currently the Chief Human 
Resources and Strategy Officer at the Society for Human Capital 
Management.
    Prior to that, Dr. Pon worked as Chief Operating Officer 
(COO) at Futures, Inc.; as a Federal contractor at Booz Allen 
Hamilton.
    Mr. Pon previously served as Chief Human Capital Officer 
(CHCO) at the U.S. Department of Energy, as Deputy Director of 
eGovernment at the Office of Personnel Different.
    Dr. Pon received his Ph.D. and master's of science degree 
from the California School of Professional Psychology and a 
bachelor of arts degree from the University of Southern 
California. Dr. Pon.

TESTIMONY OF JEFF T.H. PON, PH.D.,\1\ NOMINATED TO BE DIRECTOR, 
                 OFFICE OF PERSONNEL MANAGEMENT

    Mr. Pon. Thank you, Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee for the honor to appear 
before you today to discuss my nomination to be the Director of 
the U.S. Office of Personnel Management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pon appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I would like to thank my family--Gillian, my wife; and my 
two daughters, Cordelia and Charlotte--for supporting me 
through this process and transition to serve, if confirmed, as 
the Director of the U.S. Office of Personnel Management.
    I would like to thank President Trump for the trust he has 
put into me to lead and manage the Office of Personnel 
Management, which as you know is a vital agency to ensuring the 
proper functioning of the Federal Government.
    I would also like to thank the Senators who I have had a 
chance to visit with prior to today's hearing and their staff.
    I felt we had very honest and straightforward discussion 
about the obstacles we face, and I was inspired by their 
commitment to working together to solve big problems with big 
solutions.
    I would also like to thank the staff of the Committee that 
took the time to speak to me during this process. If confirmed, 
I am looking forward to leading the hardworking Federal 
employees of OPM who serve the American public.
    I would like to thank my friend, Acting Director Kathy 
McGettigan, who is here today, for her friendship, for our time 
together when previously I served at OPM, and her support 
through this process.
    My prior professional experience includes working in both 
the public and private sectors, including my time at OPM, where 
I led several eGovernment initiatives, and at the Department of 
Energy, where I served as the Chief Human Capital Officer.
    In the private sector, I have gained working experience 
with companies and organizations of various sizes and have seen 
technological advances that they have been able to make to 
better serve their employees.
    Through this public-and private-sector experience, I 
developed a keen understanding of the role human resources 
plays in the success of organizations.
    Furthermore, I gained firsthand knowledge of the challenges 
Federal managers encounter while accomplishing the mission of 
their organizations. I have continually focused on mission-
driven efforts, and along with the knowledge of developing and 
implementing large-scale change, I understand how to develop 
and implement large-scale change that will be important in my 
role, if confirmed as Director.
    OPM and the government faces many challenges, but I believe 
we can overcome those obstacles. In my lifetime, which I mean 
during my service as OPM Director if I am confirmed, I want to 
work with this Committee to tackle the big problems.
    We have not taken a hard look at our civil service laws in 
decades, and we are relying on paper processes, and in too many 
areas the Federal Government is not a workplace that is keeping 
up with the demands of the next generation of public servants 
or serving our current Federal employees.
    I believe we can do better, and working together, I believe 
we can implement the many ideas that I have already had the 
opportunity to speak with some of you about prior to our 
meeting today.
    If confirmed, I plan to concentrate on the most important 
resource at OPM and in the Federal Government, its people. My 
imperatives or non-negotiables for both myself and my teams are 
the following: always tell the truth, work together as a team, 
make the tough choices, treat everybody with dignity and 
respect, enhance the reputation and accomplishments of those 
around you, value differences, and create an environment that 
energizes you and the team around you.
    If we integrate these principles into our daily work, I 
believe we can be successful in overcoming the obstacles before 
us today.
    I would like to include in the testimony today a favorite 
quote of mine from Thomas Jefferson: ``As that becomes more 
developed, more enlightened, as new discoveries are made, new 
truths discovered and manners and opinions change, with the 
circumstances of change, institutions must advance also to keep 
pace with the times.''
    In my lifetime, I have been fortunate enough to see 
technological advances in the public and private sector, and if 
confirmed, I look forward to leading OPM as it continues to 
advance to better serve the Federal workforce and, as a result, 
better serve the American public.
    Thank you for your consideration, and I am happy to answer 
any questions that you may have.
    Chairman Johnson. Thank you, Dr. Pon.
    Our next nominee is the nominee for the Deputy Director of 
OPM. Mr. Michael Rigas has over 20 years of experience in 
improving organizational structures and streamlining operations 
in the private, public, and nonprofit sectors.
    Mr. Rigas currently serves as an advisor in the General 
Services Administration Office of Small Business Utilization. 
He previously served as Chief of Staff of the Massachusetts 
Department of Veterans' Services.
    Mr. Rigas has also worked as Political Director for the 
Republican Party of Massachusetts and as Deputy Director of 
Coalition Relations of the Heritage Foundation. He has also 
served as Associate Administrator at the General Services 
Administration.
    Mr. Rigas received a master's of public administration 
degree from Harvard University and both a master's of arts and 
bachelor of arts degree from Boston University. Mr. Rigas.

   TESTIMONY OF MICHAEL J. RIGAS,\1\ NOMINATED TO BE DEPUTY 
            DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT

    Mr. Rigas. Thank you, Mr. Chairman, Ranking Member 
McCaskill, and Members of the Committee for the opportunity to 
appear before you today. It is an honor to be nominated to be 
Deputy Director of the Office of Personnel Management, and I 
would like to thank President Trump for the opportunity to 
serve.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rigas appears in the Appendix on 
page 112.
---------------------------------------------------------------------------
    I would also like to take a moment to thank my wife, Laura; 
my parents, John and Zoe Rigas; my siblings; and other family 
and friends who have supported me throughout my life. It is 
from my parents that my siblings and I were taught the 
importance of public service as a way to give back to the 
country to which they immigrated. My father spent over 25 years 
as a public school teacher, and among the seven children in our 
family, five are in public service today.
    I would also like to thank the Chairman and Committee staff 
who took the time to meet with me during this process, and I 
look forward to working with you and with the Members of this 
Committee, if confirmed.
    I would also like to thank Acting Director McGettigan for 
being here today and for her support during this process.
    I am grateful to be before you today to be considered for a 
position where I would have the opportunity to serve Federal 
employees and the American public. I know from my own 
experience at the State and Federal Government levels, the 
commitment and dedication of those who serve their country.
    I hope to bring my over 20 years of management and 
leadership experience to bear on the challenges facing OPM 
today. If confirmed, I will work with agency leadership and 
staff to further OPM's ability to execute its mission of 
recruiting, retaining, and supporting the Federal workforce in 
the most efficient and effective way possible.
    OPM has faced a number of challenges over recent years. If 
confirmed, I look forward to rolling up my sleeves and working 
to address the pressing issues the agency faces.
    In particular, I hope to focus on building on the work 
already undertaken to improve the information technology 
posture of the agency and restore the confidence of the public 
in the agency's ability to safeguard and protect Federal 
employee data.
    There are also opportunities at OPM to modernize how the 
agency's work is carried out and how it can support Federal 
employees, retirees, and those seeking Federal employment.
    In my previous experiences in the public and private 
sectors, I have implemented reforms, streamlined operations, 
and reduced the amount of time it takes to process benefits. 
These are the types of experiences I would like to bring to the 
role of Deputy Director, if confirmed.
    In my previous professional leadership roles, I believe I 
left those organizations in a better position than I found 
them. I have endeavored to make a positive and meaningful 
impact, both in the public and private sectors, from improving 
customer service to saving taxpayer dollars. Each of these 
successes was possible because of the dedicated men and women I 
have had the privilege of serving with who worked together as a 
team to achieve a shared vision of a better workplace for our 
organization and better service for our customers and 
taxpayers.
    It would be an honor to serve at the Office of Personnel 
Management, if confirmed, and to serve those who seek a career 
in public service, those currently serving, and those who have 
retired from Federal service.
    I would like to thank the Committee for considering my 
nomination, and I look forward to answering any questions you 
may have.
    Chairman Johnson. Thank you, Mr. Rigas.
    Our final nominee, Ms. Emily Murphy, nominee for the 
Administrator of General Services Administration, will be 
introduced by Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Mr. Chairman, as the senior Senator from Missouri and the 
Ranking Member of this Committee, it gives me great pleasure to 
introduce Emily Webster Murphy as President Trump's nominee to 
serve as Administrator of the General Services Administration.
    Ms. Murphy was born and raised in St. Louis, and her family 
is here with her today. I will say that in full disclosure that 
her parents, Jim and Mimi Murphy, are friends of mine and 
friends of my husband's, and the Murphy family has a very 
impressive and successful local business, Murphy Company 
Mechanical Contractors, and I am proud that they are all here 
today along with her siblings and her niece and nephew to cheer 
her on and give her the support that she so rightly deserves 
from her family.
    Welcome to the Murphy family, to the U.S. Senate.
    Following her graduation from Smith College, Ms. Murphy 
worked for the family business and then moved to Washington, 
D.C., to serve as a professional staff member on the Committee 
of Small Business in the U.S. House of Representatives.
    After attending law school at the University of Virginia 
School of Law, she returned to Washington to begin a 
distinguished legal career in both the public, including 
service both in the legislative branch and the executive branch 
and private sectors, both as a practicing attorney and house 
counsel for a startup business.
    She began her career in Federal procurement in 1997 and has 
worked on acquisition issues in a variety of capacities of the 
last 20 years. As an attorney, she represented clients on 
government contracting and compliance issues, including bid 
protests, contract disputes, lobbying on small business and 
procurement policies, as well as crafting legislative and 
regulatory action plans. And while working for the U.S. 
Congress in various roles, she conducted robust oversight of 
Federal procurement policy.
    In the executive branch, she has served as Senior Advisor 
for Government Contracts and Business Development at the Small 
Business Administration (SBA) and the Chief Acquisition Officer 
at GSA under President George W. Bush.
    The GSA Administrator must be a dedicated public steward of 
taxpayer funds to ensure the American people get the best value 
and service for their tax dollars. During my time as Chair of 
this Committee's Subcommittee on Contracting Oversight, I 
investigated GSA for spending recklessly on public relations 
contracts and employee conferences.
    Ms. Murphy's breadth of experience in government 
contracting and procurement has enabled her to consider and 
understand procurement policy from the perspective of GSA, its 
sister agencies, its vendor community, as well as its oversight 
bodies.
    I had the pleasure of meeting with her in person a few 
weeks ago. During that conversation, we had a chance to talk 
about our families, our love of St. Louis and Missouri, as well 
as challenges ahead for GSA.
    She has a complete working understanding that managing the 
Federal procurement policy is no small task and is focused on 
reforming the acquisition process to increase both competition 
and competence.
    She wants GSA to be a leader in assisting Federal agencies 
as they update their information technology and cybersecurity 
infrastructure.
    She is committed to ensuring the success of our recently 
passed Federal Asset Sale and Transfer Act, which I know will 
make Senator Carper happy. She wants to manage real property 
and identify savings for the American people. She wants to move 
expeditiously to implement recommendations made by the 
Government Accountability Office (GAO) and the Inspector 
General (IG) for the acquisition and disposal of Federal 
property.
    Finally and most importantly, she pledged to create an 
environment at GSA where all employees feel comfortable 
reporting waste, fraud, and abuse to management, the Inspector 
General, or Congress, without fear of reprisal.
    I cannot imagine someone that could be more qualified for 
this position, and it is my honor to introduce her to the 
Committee today. And let me just say with some confidence, I 
look forward to working with her as Administrator of the 
General Services Administration.
    Chairman Johnson. Thank you, Senator McCaskill.
    There are three questions the Committee asks of every 
nominee for the record. I will ask the question and then just 
go from my left to your right.
    Senator McCaskill. She did not have a chance to testify.
    Chairman Johnson. Oh, you are right. She did not.
    Ms. Murphy, well, it was such a glowing--do you really have 
anything to add? [Laughter.]

TESTIMONY OF EMILY W. MURPHY,\1\ NOMINATED TO BE ADMINISTRATOR, 
                GENERAL SERVICES ADMINISTRATION

    Ms. Murphy. Maybe I should stop talking now.
---------------------------------------------------------------------------
    \1\ The prepared statement of MS. Murphy appears in the Appendix on 
page 165.
---------------------------------------------------------------------------
    Senator McCaskill. This goes under do not sell past the 
close. [Laughter.]
    Chairman Johnson. Ms. Murphy.
    Ms. Murphy. Thank you.
    Good morning, Chairman Johnson, Ranking Member McCaskill, 
and Members of the Committee. I am honored to be here today and 
to be nominated to serve as the next Administrator of the 
General Services Administration.
    I want to especially thank Senator McCaskill for her kind 
remarks and for allowing my family to use her office as a base 
today.
    Before I begin my formal remarks, with your permission, I 
would like to introduce my family members who came in from St. 
Louis: my father, Jim Murphy, who taught me the value of hard 
work by having me answer phones at the family business; my 
mother, Mimi, who started practicing law in 1971, showing me 
that women really can do anything; my sister Anne Hill and her 
husband, Rob, who had the courage to start their own small 
business; their children, Charlie who is 10 and Jane who is 8; 
and my brother, Joey, who probably has the most important job 
of any of us, teaching the next generation.
    While St. Louis will always be home, I have been in D.C. 
working on Federal contracting issues for over 20 years now. I 
have benefited from approaching these issues from a variety of 
perspectives--legislative, executive, and private sector.
    In my 9 years on the Hill, I have had the opportunity to 
work on contracting reform, first for then Congressman Jim 
Talent as the head of the House Small Business Committee. As 
the junior staffer, I got the issue no one else wanted, 
procurement policy, and I really like it.
    I later returned to the Committee to work for Chairman Sam 
Graves and Chairman Steve Chabot. Until January, I worked for 
Chairman Mac Thornberry at the House Armed Services Committee.
    I have also spent nearly 4 years in the executive branch 
implementing the laws that Congress passes, both at the Small 
Business Administration and during my tenure as the Chief 
Acquisition Office at GSA.
    Through my previous roles in the legislative and executive 
branches, I have gained a deep appreciation for the oversight 
responsibilities of Congress. If confirmed, I pledge that you 
will have an accessible, transparent, and responsive 
Administrator.
    Equally importantly, in the private sector, I have worked 
both as an attorney helping small businesses comply with 
contracting regulations and as an employee of a tech startup. 
As a result, I understand the barriers to entry that ultimately 
limit competition.
    The longer I work in Federal acquisition, the more I 
realize that good contracting saves taxpayers money, improves 
competition, and allows agencies to better execute their 
missions.
    In 2017, as government continues to modernize, GSA's 
mission is to provide contracts, buildings, technology, and 
other mission support services in the most efficient and cost-
effective manner possible. If confirmed, I will hold GSA to 
that mission.
    To that end, I intend to focus on four overarching 
priorities. The first is to provide ethical leadership. The 
citizens we serve deserve confidence in the integrity of their 
government. I will strive to earn that trust every day by 
creating a culture within GSA that puts the taxpayers first, 
encourages a diversity of opinions, values the contributions of 
all employees, and promotes a safe culture for reporting 
misconduct.
    My second priority is to reduce duplication. Significant 
opportunities exist to reduce duplication in GSA's internal 
mission support services and its systems, which will in turn 
reduce barriers to entry for contractors, barriers to access 
for other agencies, and the risks associated with managing 
outdated systems. Within the Public Building Service, GSA 
should facilitate the disposal of unused or underutilized real 
property. Further, where appropriate, GSA should reduce 
duplication by facilitating the adoption of shared services 
across agencies.
    Third, it is critical that the agency look for ways to 
increase competition. There are opportunities to do so both at 
the contract award level and at the task order level. In terms 
of real property, the leases for over 100 million square feet 
of office space are set to expire in the next 5 years, which is 
an incredible opportunity for GSA to work with Congress and its 
tenant agency to get better deals.
    Finally, improving transparency is central to the agency's 
work. Whether this means providing a database of Federal real 
property assets, making data more available at data.gov, or 
improving the system for award management, transparency will 
not only expose flaws and instill confidence in the integrity 
of our government but also increase competition and ultimately 
save taxpayer money.
    These priorities should be applied to nearly every facet of 
GSA's mission. They will provide a framework for addressing 
recommendations from the GAO and from the IG, and most 
importantly, they are the key to instilling public confidence 
in the agency.
    Thank you for the opportunity to be here today. If 
confirmed, I am excited about the opportunity to work with all 
of you, and I would be happy to answer any questions you may 
have.
    Chairman Johnson. Thank you, Ms. Murphy. That was well 
worth the hearing. Sorry I almost overlooked your testimony.
    There are three questions that the Committee asks of every 
nominee, so I will ask the question, then, from my left to 
right. Please respond.
    First question. Is there anything you are aware of in your 
background that might present a conflict of interest to the 
duties of the office to which you have been nominated? Dr. Pon.
    Mr. Pon. No.
    Mr. Rigas. No.
    Ms. Murphy. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Pon. No.
    Mr. Rigas. No.
    Ms. Murphy. No.
    Chairman Johnson. Finally, do you agree without reservation 
to comply with any request or summons to appear and testify 
before any duly constituted committee of Congress if you are 
confirmed?
    Mr. Pon. Yes.
    Mr. Rigas. Yes.
    Ms. Murphy. Yes.
    Chairman Johnson. Thank you.
    One of the reasons I try moving these hearings along is 
when I see I have good attendance, I really want to be mindful 
of the time.
    I only have one line of questioning, and it really has to 
do with a ruling OPM--and I know, Dr. Pon, we have talked about 
this, but just a quick little timeline. That will not take 
long.
    In the summer and fall of 2009, the Senate was debating 
health care reform in both the Health, Education, and Labor 
Pensions (HELP) and the Finance Committee. Both Senator Coburn 
and Senator Grassley offered amendments to require Members of 
Congress to purchase health care in the same situation, same 
basis changes or a plan produced by whatever legislation came 
up.
    November 18, 2009, the Patient Protection Affordable Care 
Act was introduced into legislation, and it included language 
similar to Dr. Coburn's, which required Members and staff to 
enroll in one of the new health insurance programs created by 
the bill.
    Now, there was no provision for an employer contribution. 
So Senator Grassley tried to offer an amendment, which was 
never voted on during that process, and of course, Obamacare 
was passed on Christmas Eve.
    March 24, 2010, Senator Grassley again introduced an 
amendment during the debate on Health Care and Education 
Reconciliation Act that would have allowed an employer 
contribution that could be used only to purchase insurance 
through State-based exchanges, which is what was required under 
Obamacare.
    That amendment failed, 43-56. So Congress expressly stated 
that no employer contribution would be allowed into the health 
care plans that Members of Congress had to buy through the 
exchanges.
    Fast forward. On October 2, 2013, as we were approaching 
the implementation of Obamacare, in some way, shape, or form, 
the Office of Personnel Management came up with a scheme to 
allow Members of Congress to be viewed as a small employer with 
50 employees, even though we have over 10,000, to purchase 
insurance through Small Business Health Operations Program 
(SHOP) exchange, which did allow an employer contribution.
    On October 9, 2013, Senator David Vitter requested 
information, documents in terms of how OPM reached that 
conclusion.
    On January 6, 2014, I initiated a lawsuit to overturn what 
I think is an unlawful ruling.
    Fast forward to February 2, 2016, Senator Vitter again 
requested information because he had not received any 
documentation. February 5, 2016, in a hearing on Beth Cobert's 
nomination for OPM Director, I asked her to commit to help me 
get that information. February 24, 2016, Vitter again wrote OPM 
asking for those documentations. Finally, on March 15, 2016, 
OPM provided limited documents, did not really tell us much.
    I have continued to request that information. August of 
this year, I requested the documents again. I was provided on 
September 1 the same documents that David Vitter was provided, 
again, no information. So on October 4, I wrote another follow 
up letter saying that I might have to subpoena the records.
    So, Dr. Pon, what I am asking you is a commitment to 
provide that information if you become Director of OPM.
    Mr. Pon. Sir, thank you for meeting with me, first of all, 
and highlighting this as a priority for you to get done. I do 
believe it is a very important issue, and the request, I 
believe, has been recognized in OPM. And they are in the 
process of providing you documentation of which I do not know 
the extent of which the documentation if confirmed, I will make 
sure that I look into it myself personally. I will make sure 
that if there is any documentation to be provided to you, I 
will inform you what the status is and make sure that we will 
follow up on it.
    Obviously, this is Federal Employee Health Benefits. I know 
of no other organization in the private sector, to the best of 
my knowledge, that actually provides a contribution to a public 
exchange.
    So with that said, if confirmed, I will be responsive to 
the request that you have currently, and I will be hopefully 
reviewing all of the materials that are available to OPM in 
regards to your concern.
    Chairman Johnson. OK. Thank you.
    Without a doubt, this is special treatment only for Members 
of Congress and their staff, and so I will just put the 
Administration on notice. They have basically told us they are 
going to begin document production on a rolling basis. Unless I 
am satisfied that that is being done in good faith, that I am 
going to get all the documentation, no offense to you, I will 
be holding up your nomination.
    And with that, Senator McCaskill.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, could I just interject here, 
not to be counted against your time? Could I just make a quick 
statement?
    Yesterday, an encouraging word out of negotiations between 
Senators Alexander and Murray on health care, trying to 
stabilize the exchanges--I think this is an issue that just 
cries out for us to sit down and just talk it through.
    I think we have over half the people in this country get 
their health insurance through large group plans. Almost every 
one of them have an employer contribution to their plan. 
Federal Government, all Federal employees, except--including 
now us--get some kind of employer contribution to the--and we 
have to pay a share, and so do most employees around the 
country into their--that is the way we do--we provide health 
care in this country. We have done it for years, and it makes 
sense.
    Let us find a way so that the thing that I do not want to 
end up with is saying we are going to treat the legislative 
branch employees differently than every other Federal employee 
and differently----
    Chairman Johnson. Take a look at how you voted for those 
things.
    Senator Carper. No. This would be a great--rather than just 
like going back and forth, let us just sit down and work this 
out. If Lamar and Patty can make the kind of contribution and 
progress they did on a much harder issue, we ought to be able 
to work this out.
    Chairman Johnson. Yes. But again----
    Senator Carper. And I pledge to do that with you.
    Chairman Johnson. Happy to. I will be introducing, 
hopefully, a piece of legislation today or tomorrow in terms of 
CSRs, but 4 years, I have been trying to get this information 
for 4 years and have not been able to do it. I have run out of 
patience.
    So I think this is an important piece of information to 
have, these levels of documents, and again, I am just saying I 
want that--but I think that will be part of the record--so we 
can actually come to a conclusion on this, OK? Senator 
McCaskill.
    Senator McCaskill. Let me just point out what I think is 
obvious that no Member of Congress is required to take the 
employer contribution. So if you voted to not take an employer 
contribution, then you have the ability to turn it down.
    I certainly feel for what Senator Carper was addressing. It 
seemed terribly unfair to our staffs that every member of the 
Federal Government gets a Federal contribution for help with 
their health care, like most people who work in businesses in 
this country. It is terribly unfair to sacrifice them at the 
altar of politics, but certainly, every member has an 
individual decision they can make about whether or not they 
take the employee contribution. They have that freedom of 
choice. So you can be consistent with your vote if you want to 
be, those who voted to do that.
    Let me ask this first question of all of the witnesses. We 
had a controversial legal opinion coming out of the Office of 
Legal Counsel earlier this year at the Department of Justice 
(DOJ), and it basically said that there was no obligation on 
the Federal Government to respond to Ranking Minority Members 
on oversight requests.
    I have been grateful that seems to have been walked back, 
and I think most, if not all, of the nominees that have 
appeared in front of this Committee have said, no, absolutely, 
they would respond to requests from Minority Members as well as 
Majority Members in terms of oversight.
    But I want to make sure I actually get everybody on the 
record. Do you agree or disagree with this legal opinion, and 
are you willing to provide oversight documentation to both 
Minority and Majority Members of Congress? Dr. Pon.
    Mr. Pon. I will be responsive to the request both from the 
Majority and Minority.
    Senator McCaskill. Thank you. Mr. Rigas.
    Mr. Rigas. Yes, Senator McCaskill. I will also be 
responsive to requests, both from the Majority and Minority 
Members.
    Senator McCaskill. And Ms. Murphy?
    Ms. Murphy. Yes, Senator. As someone who has spent 9 years 
of oversight on the Hill, I will be very responsive to both 
Members of the Minority and the Majority.
    Senator McCaskill. You feel our pain, don't you?
    Ms. Murphy. I do.
    Senator McCaskill. Dr. Pon, as you and I have been very 
involved in the National Background Investigation Bureau (NBIB) 
stand-up. We had a really bad situation going on with a 
contractor, and we had high-profile mistakes in terms of 
security clearances. So we have tried to stand up this bureau 
to handle all of the background checks for over 100 Federal 
agencies.
    And obviously, we still have a significant backlog.
    Mr. Pon. Yes.
    Senator McCaskill. And I am worried that we have made 
progress and because we have not quite gotten to the Promised 
Land, the Department of Defense is now saying, ``Well, we want 
ours back.''
    Mr. Pon. Yes.
    Senator McCaskill. Can you address this and what your view 
is on how we can continue to make progress in this important 
area in terms of the centralized, professionalized ability for 
the government to do reliable background checks on employees 
with classified and sensitive information?
    Mr. Pon. Senator, thank you for your question. My personal 
experience with many of the services, including background 
investigations, is that the Federal Government at times puts 
certain resources in many different organizations, and 
inconsistencies happen as a result, both from a policy 
standpoint and also from a service standpoint.
    My experience in providing shared services such as payroll 
and others is making sure that there is standardization, 
unification, and simplification. Many of the things that we do, 
we overcomplicate.
    In regards to the backlog, I do know that you know the 
history of it, coming over to OPM in 2005, and then we had the 
mishap of losing everybody's security background 
investigations. And then we had a workforce issue due to that 
from the contractors leaving. We never recovered that 
capability, but we have built it back, now that the NBIB is 
stood up. It has been about a year. We are evaluating their 
performance, and it seems as though it is stabilizing the 
investigations process, yet still we need to make substantial 
results in terms of whittling down the backlog.
    Obviously, there are two parts of the backlog. One is the 
incoming and growing incoming and also the management and 
adjudication of the different types of investigation files.
    Background investigations itself, we have many different 
methods of looking at investigations. And excuse me. When I say 
``we,'' the OPM has many different ways of doing that, but it 
still does not replace the doorknockers, if you will, going to 
a person's neighborhood, employer, and interviewing people. So 
that at times does require some work, but I do believe that I 
have read Acting Director McGettigan's concerns about moving 
it, including DOD, and proper planning is required currently 
for looking at whether or not it is feasible.
    Senator McCaskill. Thank you.
    Another question for you. One of the challenges with 
acquisition is, of course, there has to be rules, so we do not 
have sweetheart contracts. We do not have no-bid contracts. We 
do not have ``It is who you know, not what you can perform.'' 
We have to make sure we are getting value for our money.
    But there is a sweet spot, and the Chairman is right. 
Sometimes we have made this overly complex. The same thing can 
be said for hiring, and as I mentioned to you, Dr. Pon, in our 
meeting, the best example I can give of this is the one that 
Heather Wilson told me when we were at the Air Force Base in 
Missouri. She sent over for hiring at OPM someone to do the 
simulator training on the F-35, and she was very upset when it 
came back that they would not approve this hire because the 
person had not had enough experience flying the F-35.
    For those of you who do not realize what that means, the F-
35 has not flown yet. So no one is going to have experience 
flying the F-35. It is a new aircraft, and so the idea that 
they were disqualified on that basis just shows how nonsensical 
the hiring process has become in terms of trying to make it 
more efficient.
    You and I have talked about this. Do you think you can make 
a sizable dent? Are you willing to predict? Can you get hiring 
down to 3 months? Can you get it down to 30 days? What is your 
goal in terms of how quickly we can get hiring done?
    Mr. Pon. Senator, thank you for that question. Making sure 
that we can have efficient and effective hiring is utmost of 
importance. It does take a considerable amount of time.
    In my experience, I have had to, quote/unquote, push the 
bureaucracy to get results. At the U.S. Department of Energy, 
we had a conference locally here having to do with nuclear 
engineers, and if I looked at the general schedule (GS) which I 
could hire for, it was a difference of $37,000 to $125,000 in 
the private sector, and they could beat us by hiring on the 
spot. So what we did was we literally had a bunch of our HR 
people look and classify the incoming resumes that they typed 
on USAJOBS and then classified them, interviewed them at the 
spot. And within 2 days, we actually offered up hiring, and we 
hired three people from that. That was really to demonstrate a 
point that we can do it if we tried and not trade the, as I 
say, pink rock and red rock back and forth. What are you 
looking for? It is not that. And it just slows things down.
    Simplifying things, making sure that managers have 
management self-service dropdown menus for position 
descriptions, applicant tracking systems that are much more 
automated to communicate between the job seeker and also the 
manager, that will speed up the process quite a bit. And I 
would hope that we can get hiring in a reasonable amount of 
time. I still think 3 months is a long time, so that would be 
under that.
    Senator McCaskill. OK. Well, we will have you back in a 
year and look at the numbers.
    I know I am over time, Mr. Chairman, but I probably will 
not be here for a second round. So I will just ask that I will 
put on the record questions about whistleblower protections. It 
is very important that there is no retaliation for 
whistleblowers in the government. They do great work. Sometimes 
they are wrong, but many times, they have done great service to 
this country by blowing the whistle. And I want to make sure 
that all three of you are on the record before your 
confirmation votes about your attitudes and programs to protect 
whistleblowers from retaliation.
    Thank you, Mr. Chairman, for your patience.
    Chairman Johnson. And by the way, maybe you were not 
following this in the House. It did pass our Dr. Chris 
Kirkpatrick Whistleblower Protection Act.
    Senator McCaskill. Yes. No, I know.
    Chairman Johnson. That was right out of this hearing with 
Sean Kirkpatrick.
    Senator McCaskill. I know. I was here. Absolutely.
    Chairman Johnson. I also want to quickly clarify the 
record.
    Senator McCaskill. Sometimes the laws do not make a 
difference, though. I want to make sure that we recommend----
    Chairman Johnson. I know. No, I agree.
    Just to clarify, I am not opposed to employer contribution. 
I did it for 30-some years in my business.
    What I object to is, for example, agencies not following 
the law as written. I object to special treatment for Members 
of Congress. We are the only ones that buy through these SHOP 
exchanges or through a----
    Senator McCaskill. We do not----
    Chairman Johnson. I know we should be, but again, we are 
the ones getting the special treatment. And I really do object 
to Members of Congress not being sympathetic to the forgotten 
men and women they are working hard. They have been priced out 
of the market, and we are just not doing anything to bring 
those premiums down.
    So again, and by the way, the Republicans did not have a 
problem with employer contributions either. They actually voted 
for the Grassley Amendment. That is not what caused the defeat 
of that.
    Senator Carper. One last word on this. Again, Senator 
Alexander and Senator Murray have, I thought, shown a lot of 
courage, a lot of tenacity in negotiating a couple of steps 
that I think actually provide better health care coverage for 
some less money, bring down costs in the exchanges, stabilize 
the exchanges, which we need to do. And they are smart. They 
are a couple of smart cookies, very good negotiators.
    We have some real smart cookies on this Committee and 
pretty good negotiators as well, and what we need to do is 
spend some more time and energy to figure out how we can make 
sure that we do not put Federal employees who happen to be in 
the legislative branch at an unfair advantage compared to the 
rest of the workforce and, frankly, Federal workforce compared 
to the rest of most of the people who get coverage, the health 
care coverage in this country. So there has to be a way to work 
this out, and we look forward to doing that.
    Dr. Pon, Mr. Rigas, Ms. Murphy, great to see you all. Thank 
you for your willingness to serve in these capacities. Those of 
you who helped raise these young people, and nurture them and 
give them the kind of values and belief in hard work that 
obviously that you have, thank you for doing that. And for 
those of you who are later or just friends, thank you for being 
here to support them.
    We have been joined by Senator Portman. He and I have 
worked together on a number of issues that actually fall in 
your purview. One of the things we are working on, especially 
this year, is to try to make it more attractive to incent and 
encourage Federal employees to actually stay in the Federal 
Thrift Savings Plan (TSP), and there are some very thoughtful 
things that we have offered as legislation. I appreciate very 
much our partnership.
    And I just flag that as something that we are working on. 
We are going to be looking to you for guidance from your 
vantage point, Dr. Pon, Mr. Rigas, and try to produce some 
smart things and actually encourage in ways that I would not 
have imagined, encourage people to stay in the Federal Thrift 
Savings Plan.
    Dr. Pon and Mr. Rigas, speaking of smart cookies, Beth 
Cobert, who used to be the No. 2 person at the Office of 
Management and Budget (OMB) and was acting head of OPM and used 
to run McKinsey & Company's operation out in San Francisco, I 
have urged you to reach out to her. I would urge you to have an 
ongoing conversation. She is one of the smartest people I know. 
She has before us many times, and she could just be a great 
asset actually to the three of you. And she would be happy to 
do that. So if you have not taken advantage of that, please do.
    And somebody mentioned the issue of real property, at least 
one of you mentioned that in your testimony, and one of my 
colleagues has as well. I have been pleased with how both the 
Administration of George W. Bush and the Administration of 
Barack Obama took a real active role in Federal real property 
management. I think Rob might have been the OMB Director for 
George Bush at the time to actually be behind some of that 
interest that Administration had.
    Last Congress, several Members of this Committee worked to 
pass two pieces of property reform legislation that will codify 
many of those efforts and help keep the ball moving forward in 
this area, and I would just say, Ms. Murphy, what are your 
plans to ensure that the good work of now two Administrations, 
good work on real property reform continues in this 
Administration?
    Ms. Murphy. Thank you very much, Senator Carper, and thank 
you for taking the time to meet with me previously.
    Senator Carper. It was a pleasure.
    Ms. Murphy. Federal real property reform is the one GAO 
high-risk list item for GSA. Addressing it, and making sure 
that we look at opportunities to do a better job with our 
leases is a priority.
    As I mentioned, we have 100 million square feet in leases 
at GSA that will be expiring over the next 5 years. It is an 
incredible opportunity to get better deals, and to look at 
longer-term leases. The average GSA tenancy or Federal agency 
tenancy in a GSA lease is about 24 years. Our average lease is 
6 years. We are leaving money on the table.
    We are underutilizing our Federal buildings, and those that 
are underutilized or unused, thanks to you and Senator Portman, 
we now have a lot of authority to try and expedite the disposal 
of those. I am looking forward, if confirmed, to working with 
the Federal Real Property Board on actually expediting that 
reform, expediting that disposal, and trying to make sure that 
all the data is there as soon as that board is set.
    I would also like to work, though, with this Committee on 
opportunities to look at public-private partnership 
opportunities so that we can get better deals on build-to-suit 
leases, such as the Department of Transportation (DOT), for 
example. It is my understanding that we have spent $750 million 
on the Department of Transportation lease over 15 years, and at 
the time that that lease was negotiated, as I just learned last 
week, we had the opportunity to have a $1 purchase option. But 
we went back and said, no, we needed to have a fair market 
value purchase option. So we are going to pay for that building 
more than once. I would really like to work with this Committee 
to try and address issues along those lines.
    Senator Carper. All right. Thanks.
    A follow up question, if I could.
    Ms. Murphy. Yes.
    Senator Carper. Some of my colleagues have heard me talk 
about this before, but it bears watching. Our Committee used to 
be just ``Governmental Affairs'' for many years, and more 
recently ``Homeland Security and Governmental Affairs.'' But 
they actually kind of meld together around one project, and the 
project is St. Elizabeths.
    I think some of us have been out to St. Elizabeths. Some of 
us have actually visited the headquarters of the Department of 
Homeland Security (DHS) over the last dozen or so years. It is 
a hard agency to manage, 240,000 employees all over the world, 
a bunch of them in this part of the world. They are not in 
Delaware, but they are in Virginia. They are in Washington, 
D.C. They are in Maryland. They are spread all over hell's half 
acres, and a lot of times, the arrangements do not make much 
sense.
    Jeh Johnson once said, ``I do not know how somebody could 
be expected to manage an operation like this,'' and he said, 
``When I talked into it, I just said, 'You got to be kidding 
me.'"
    And so the idea of St. Elizabeths, I used to think it was a 
boondoggle, and I actually went out there. I spent plenty of 
time with, I think, every former Secretary of Homeland 
Security, and they convinced me, no, it was not a boondoggle. 
It was actually a smart thing to do.
    And the folks at GSA were smart enough to figure out how to 
get more money, save more money, by consolidating people rather 
than continue to have them spread out all over the place.
    Would you just talk a little bit about this? I have become 
a believer. I was not initially. Jeh Johnson became a believer. 
He was not initially. But I think in the end, it saves money 
for us, and it actually gives us some hope and prayer of 
actually being able to better manage a huge unwieldy operation.
    Please go ahead, Emily.
    Ms. Murphy. Thank you, Senator.
    If confirmed, making sure the Department of Homeland 
Security has the headquarters they need to protect us all is 
going to be one of my top priorities.
    I too have been out and visited the campus. I have seen the 
beautiful building they built for the Coast Guard. I have seen 
the work that is taking place in the Secretary's office. I 
believe that is going to be completed early next year, and so 
we will be able to start moving more of the DHS employees out 
there.
    It is an ongoing process, and I know that we are working 
closely with DHS right now on a revised plan to provide to you 
and to the Committee.
    Senator Carper. Thank you, one and all. Thanks.

              OPENING STATEMENT OF SENATOR TESTER

    Chairman Johnson. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and I want to 
thank each and every one of you for your willingness to serve. 
And I mean that.
    I am going to focus most of my questions around the 
Veterans Administration (VA) and the Indian Health Service 
(IHS), mostly the VA, and I will start with you, Ms. Murphy.
    The VA has its own independent legislative authority to 
lease medical clinics around the country. Recently, Congress 
authorized 28 leases, one in Montana, and quite frankly, the 
process for leasing is incredibly slow. In other words, we got 
it through Congress finally, and we have a line of veterans in 
a facility that is way too small.
    And I talked to my folks that are in the State to find out 
how things are moving along, and they are saying it is going to 
be a minimum of a year and probably longer before they get 
moved into a new space. That is incredibly disheartening for me 
when we know that there is a problem that needs to be dealt 
with.
    So I would ask this. Do you have any ideas on how to speed 
that process up, how to make--I mean, I know you have 
responsibility here, and so does the VA. But at some point in 
time, both agencies need to work together and get this going. 
It should be done by the first of the year, in my opinion, but 
I may be unreasonable in that request.
    Do you have some ideas on how we can speed this process up 
of leasing between agencies?
    Ms. Murphy. Thank you very much for the question, Senator.
    I agree we need to do a better job making sure that our 
veterans have the medical facilities they need.
    Senator Tester. Yes.
    Ms. Murphy. In my role as a Senior Advisor at GSA right 
now, I am aware that we are actually working with VA----
    Senator Tester. Yes.
    Ms. Murphy [continuing]. To see if we can help them with 
their leasing. We have some contracts in place that can help 
speed up the leasing authorities, and we have a national broker 
contract and also something called the Automated Advanced 
Acquisition Program (AAAP) process. We are trying to do 
anything we can to help them with that process.
    Senator Tester. OK. So we have a new Administration that 
has come on board, and you have an opportunity here to really 
make a difference.
    I can tell you, as I go around Montana, there is a lot of 
frustration with GSA, and for the last 10 years, there has been 
frustration with GSA, to the point where I had one person tell 
me they are not happy until I am unhappy.
    And so there is some opportunity for success here, and I 
can tell you that the little bit of common sense, looking at 
things, cutting the red tape, I think you can do this. And I 
just want you to know that. You have support on this Committee 
to do that, and so we will be pushing you to do that. I will be 
pushing you to do that at least.
    I want to talk a little bit about qualified medical 
professionals, and I want to go back to you, Mr. Rigas. And I 
am going to preface this by saying that the President has 
talked about giving all the veterans a card and say go wherever 
you want. That is what he said during the campaign.
    In your previous work with the Heritage Foundation, at 
least in my bio of you--and you can correct if this is wrong--
it says you worked to advance free market and limited 
government policy solutions, which is--I am OK with that, but 
when it comes to the VA, that sounds like you want to privatize 
the VA. Could you give me some sort of assurance that that is 
either what you want to do or what you do not want to do?
    And why I say this, because you are going to be in a 
position of hiring people, and I am going to get to another 
question with Jeff and you on this, that if you do not hire 
people, you are going to, in fact, be privatizing the VA.
    Go ahead.
    Mr. Rigas. Thank you, Senator Tester.
    In my role at the Office of Personnel Management, if 
confirmed, would be to assist agencies meeting their strategic 
needs, working with the heads of agencies and their chief human 
capital officers to ensure that their needs are being met.
    I have had my most recent experience at the Massachusetts 
Department of Veterans' Services. It was a great opportunity 
for me to work directly with providing benefits to veterans, 
and I would look forward to finding, helping the VA get the 
resources it needs and the flexibilities it needs in terms of 
hiring to be able to adequately meet needs for our veteran 
population.
    Senator Tester. I appreciate that. Thank you for that 
answer.
    The VA and IHS are incredibly understaffed. If I was going 
to say we have one problem, it is staffing and then it is 
facilities. And VA has many problems, by the way, but those are 
the two biggies.
    And in Montana, I can tell you unequivocally, there are 
tons of positions that are not being filled, and these are 
doctos, these are nurses, these are medical professionals. And 
I got it. There is a lot of competition in the marketplace.
    But, Jeff--and you can jump in on this too, Michael, if you 

like. But, Jeff, can you tell me what we can do to make this 
hiring--because, quite frankly, what happens is we get a doctor 
on the hook, and by the time the gavel drops, they have been 
working for a private hospital 60 days or 90 days quicker. Can 
you tell me how we can speed this process up and make it a 
priority?
    Mr. Pon. Absolutely. So making sure that we have the right 
people is OPM's mission--right people, right place, right 
time--making sure that we can have a world-class work 
environment for our workers. And doctors at the VA, they are 
just in the front lines of taking care of our veterans. That is 
a personal passion of mine to make sure that our veteran 
population has the care it needs.
    In terms of hiring, we need to speed things up. We need to 
make sure that everyone all the way down the line actually 
understands the authorities that they have, and if they do not 
have those authorities, I will talk to you and your 
constituents and make sure that we can discuss the issues, the 
challenges of hiring and retaining the talent that you have and 
making sure that we can take a look at what we need to get to 
get the right talent on board.
    Senator Tester. Perfect.
    And if they are not utilizing those authorities, can you be 
proactive about telling us about that?
    Mr. Pon. Absolutely. I will be happy to brief everybody 
about that.
    Senator Tester. One of the other things you are responsible 
for, Ms. Murphy, is the fact that you can get rid of 
underutilized property. There is a proposal. It is mainly at 
the House at this moment. By the way, I do not have a problem 
with this, getting rid of underutilized property.
    Here is where I have the problem. I just talked about the 
staffing. There is several clinics in Montana, community-based 
outpatient clinics that have not had a doctor in years, not 
because they do not need a doctor. It is because the VA or OPM 
or maybe both have dillydallied around about filling those 
positions. So if we did a Base Realignment and Closure (BRAC), 
it would make it look like those clinics are underutilized.
    How would you deal with that situation where the 
underutilization is really caused by the agency more than it is 
caused by the need on the ground?
    Ms. Murphy. Thank you, Senator.
    If confirmed, I would really want to work with VA and with 
this Committee to make sure we understood all the potential 
ramifications of disposal before we would move forward.
    Senator Tester. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    First off, along with all of my other colleagues, I want to 
thank you so much for your willingness to serve our country and 
in roles that are not always the most glamorous but are 
absolutely critically important to making sure that government 
functions and that we spend every dime of Federal taxpayer 
dollars effectively and efficiently.
    And so I am going to leave Emily alone because she warned 
me that her niece, Jane, would come at me if I was mean to her 
aunt. [Laughter.]
    So, Jane, you are pretty fierce, and so we are going to 
just thank your aunty for all the great ideas she expressed to 
me.
    And Senator Lankford is not here right now, but I invited 
all of you, the two that I was able to meet with, to always 
work with our Subcommittee. We are very interested in what you 
find once you are there, very interested in working with you to 
remove congressional barriers to efficiency changes that you 
would recommend and modernization, I would say, and 
improvements.
    And so I have just a couple targeted questions for you, 
Jeff.
    Mr. Pon. Yes.
    Senator Heitkamp. In August, GAO released a report that 
examined OPM's efforts since the 2015 data breaches to prevent, 
mitigate, and respond to future breaches. The report concluded 
that OPM has made progress in implementing the 19 
recommendations that were made in the aftermath of the 
breaches, but some of the recommendations still need to be 
implemented.
    If confirmed, what steps would you take to ensure that OPM 
fully implements these recommendations, and more broadly, what 
steps would you take to ensure OPM remains compliant with the 
Federal Information Processing Standards (FIPS) and the 
National Institute of Standards and Technology (NIST) standards 
and guidelines and others' ordinary security practices?
    Mr. Pon. Thank you, Senator.
    I think information security is something that we all need 
to work on, on a daily basis. My experience in the Federal 
Government, we ran eGovernment initiatives, five eGovernment 
initiatives that had large-scale implications such as USAJOBS, 
the e-Payroll initiative, 22 payroll systems going into four 
shared service centers. Many of those systems have` to be 
certified and accredited. I think they call it now ``license to 
operate,'' and that is having to deal with the Federal 
Information Security Management Act (FISMA), requirements. At 
the time, it was 853. I believe it is at 871. That is the 
guidance that people take to ensure that the latest protections 
are instituted, and I think that is very important for us to 
make sure that we have professionals that understand that and 
do it for a living and we have the necessary personnel to do 
that.
    I believe OPM had a target 2 years ago of hiring 6,500 
cybersecurity professionals. I think to date, it is at 8,000-
plus. So it exceeded its original goal, but I think not just 
getting the people on board to do that, but going through what 
we are required to do and what people have recommended us to 
do, we needed to be hawkish on those management requirements.
    I have worked well with the IG in my previous past as well 
as GAO in looking at their recommendations and taking them 
under advisement and having project plans to close on those 
things. So my priority would be to look at the recommendations 
that are left and act on them.
    Senator Heitkamp. Dr. Pon, OMB has mandated an evaluation 
of agencies come back with streamlining or come back with 
perhaps reorganization plans.
    One of the concerns that I have has been this idea that 
across-the-board cuts is the way to do this or you manage to 
attrition because what you could see is exactly a poaching of 
those high-profile, high-demand positions, which we then would 
be starving in exchange for probably overstaffing in other 
areas.
    Mr. Pon. Yes.
    Senator Heitkamp. So our expectation is that you will be 
heavily involved with OMB, that you will be working hand-in-
glove to try and help them evaluate personnel needs within 
agencies. Can you commit to us that your work will be seamless 
with OMB and that you will be a fierce advocate for appropriate 
staffing, not just easy staffing?
    Mr. Pon. In my previous experience, Senator, with OMB, we 
had no daylight between us--try consolidating 22 payroll 
systems into 4 and telling people they are out of the payroll 
business and going to a shared service center.
    OMB played the role of enforcing the laws that Congress 
gave us, such as the Economy Act, Clinger-Cohen Act, the PIA, 
and Antideficiency Act. So they, in essence, had to play the 
heavy, if you will. OPM wanted to make sure that they provided 
those services to the organization----
    Senator Heitkamp. But I also believe, Dr. Pon, that you are 
the first line of defense when agencies say we need this 
quality of person.
    Mr. Pon. Yes.
    Senator Heitkamp. So you need to be there saying, it may 
not make sense in North Dakota to eliminate positions for 
Bureau of Land Management (BLM) while the industry is looking 
for an appropriate timeframe for permitting. And so we need an 
advocate for common sense, not just what seems to be easy.
    Finally, I think one of the frustrations that we have had, 
Senator Lankford and I have had, is OMB and the IG reports not 
being listened to, that we not see an appropriate response and, 
in fact, a defensive posture as opposed to ``Wow, that is a 
really good idea. I think I will do that.''
    And I want a commitment from all of you that you will 
listen to what the IGs say, you will listen to what GAO says, 
and that you will come back even stronger with even more 
suggestions for efficiency.
    I want to start with you, Dr. Pon.
    Mr. Pon. Absolutely. So again, my leadership style is to be 
responsive and follow the advice of people that recommend those 
things, but also it is not to just manage the things that we 
get confronted of. To use your language, we need to be an 
advocate for leadership and having suggestions become more 
recommendations and ideation so that we can actually be 
creative about managing things.
    Senator Heitkamp. We will just skip to Emily.
    Ms. Murphy. Yes, Senator. I have always had an excellent 
relationship with our IG, and I look forward to working with 
them and the GAO.
    Senator Heitkamp. And I was really impressed that you were 
well aware of the high-risk concerns that we have and that very 
willing to address those on the front end.
    This is our first conversation. It will not be our last in 
this room, and so I pledge to you to be a forceful advocate for 
your agencies that you look at reforming and doing the work 
that you need to do. We are all in this together.
    So thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Senator Heitkamp and I work on these issues a lot. So when 
you see the two of us on this dais, get used to that because we 
are going to spend a lot of quality time together walking 
through these issues.
    Let me make the request of you now that she and I will make 
the request of you every time we get together. When we talk 
about a problem and an issue, whether it is in personnel issues 
or whether it is GSA or OPM, whatever it may be, we are going 
to ask you a simple question: Where is the problem? Draw a line 
down the middle. Tell us where you already have authorities to 
fix this. Tell us what authorities you need from Congress to 
fix this. I do not want to have 2 years from now us all 
pointing to each other and saying you have authority to do it 
and you are saying I need three words added different in one 
law or I am stuck. We need to be able to find a way to 
collaborate and work together.
    So I will assure you that we will work together on these 
issues. We want to have a collaborative relationship because at 
the end of the day, the American people do not need to hear it 
is somebody else's fault. They just want it fixed. So we want 
to make sure that we have an ongoing dialogue in the days 
ahead.
    We have all visited in my office and had the opportunity to 
be able to talk through some of these issues already, but I 
just want you to be able to hear publicly, we want to solve 
these things. We do not want to have a combative relationship. 
That does not help anybody. It helps us if we solve it.
    So it is now 400-plus days to hiring for some agencies. We 
have 120 different hiring authorities out there that almost no 
one uses. They all ask for just direct-hire authority, though 
there is 120 other authorities that are there.
    We have Federal properties that we have had empty for more 
than a decade in trying to figure out what to do with them and 
how to be able to dispose of them. We all see the issue. We 
have just got to find a way to be able to work together to be 
able to work it out and to be able to actually get this done. 
So that is what we look forward to actually doing.
    Let me make just a couple of direct questions to each of 
you.
    Dr. Pon, thanks for your commitment, what you have already 
done, for our visits already. You and I talked about the 
retirement system for Federal employees. This is something only 
Federal employees would think about, but for Federal employees 
that actually go to retirement and get there, they assume their 
benefits kick in, and they find out it is actually maybe 6 or 9 
months later, their benefits kick in because of the bureaucracy 
in the process, because of literally tens of thousands of file 
cabinets and pieces of paper and someone is trying to track 
down that piece of paper.
    Now, if I go into a normal workplace now, they have an 
electronic system. For some of them, that begins all the way in 
the hiring process, maintains that file. Even if they move to 
different departments, it remains consistently. They do their 
yearly evaluation in that system, and when they do a 
retirement, it also kicks into that system.
    We have nine different processes--half of them paper, half 
of them electronic, some of them in cobalt in that process. We 
desperately need someone to be able to help us work that 
process out.
    What can you tell me about your plans on dealing with that 
process, just to be able to streamline it?
    Mr. Pon. I can imagine a future where we have electronic 
recruitment all the way to retirement and death benefits.
    Senator Lankford. That exists. That is not some myth.
    Mr. Pon. That is right.
    Senator Lankford. That actually exists in the commercial 
marketplace.
    Mr. Pon. That is right. So the technology is not the 
problem. It is actually making sure that we execute on putting 
things together and simplifying things and making sure that the 
transactional data--not just paper, but transactional data that 
you need can actually be transacted in an efficient and 
effective manner.
    I would prioritize the things that we need to process 
things, to keep things moving, and then worry about the paper a 
little bit longer in dual process.
    Senator Lankford. Does that start with a single agency as 
an experiment, or does that start governmentwide? Where does 
that begin?
    Mr. Pon. I think there are pockets of the government that 
actually do this well, and there needs to be some sharing of 
best practices there, but making sure that we can demonstrate 
the principle of having a digital record be transferred from 
agency to agency and also start accepting digital files for the 
processing of retirement systems.
    Senator Lankford. OK. I would only tell you that United 
States Customs and Immigration Service started 10 years ago to 
be able to update their system for visas, and it is still not 
done. Fifteen years ago, DHS started the process of trying to 
combine all their HR systems into one place, and it is still 
not done.
    So while I say there are obvious solutions that are out 
there, we have had a lot of folks sit in that same chair and 
say, yes, this needs to be done, but we have big areas that are 
unresolved that are incredibly significant and slow the process 
down.
    Mr. Pon. Sure.
    Senator Lankford. So we look forward to working together.
    Let me just ask a blunt question: Do we need 120 different 
hiring authorities in the Federal Government?
    Mr. Pon. I believe that if we are not using them, we do 
not.
    Senator Lankford. Yes. I do not think we do, and it is one 
area that we want to be able to work together to say what do we 
really need, what is the best way to accomplish this, how do we 
set standards for agencies on how they should accomplish hiring 
and allow them to be able to do that hiring. So let us work 
together to be able to resolve that.
    Mr. Pon. Looking forward to it.
    Senator Lankford. Ms. Murphy, you have a big job. You have 
millions of acres of property inside. Some of them are empty 
currently, but for most any entity in most any city, they say 
the Federal Government is a great landlord because they always 
pay the rent that is out there on it, but it does not mean it 
is actually occupied. And they do not want it disposed of, and 
some communities actually fight us from disposing a property 
because they like just the anchor of that being there.
    But we have a lot of unused space. How do we fix this 
problem? Because for years, there has been this conversation 
about fixing it. We have done some bills of late to try to 
resolve this. How do we fix it long term?
    Ms. Murphy. Thank you, Senator.
    When I talked about reducing duplication, I really do mean 
we need to look at the duplication we have in Federal space, 
and better utilize the space we have, and dispose of the space 
that is either underutilized or unused.
    Since I have been back at GSA since January in my role as a 
Senior Advisor, I have been monitoring the collection of data 
we are putting into the Federal Real Property Profile Database, 
which is going to go in and list out all those properties and 
the utilization rates. For the first time, I think this 
December, we will have the information from other agencies in 
there as well. So that when we have that board in place and the 
new expedited disposal authorities, we will be able to give 
them some real data to go in and crunch and analyze, and then 
GSA is ready to implement the disposal as soon as we get the 
sign-off from that board.
    Senator Lankford. So with that utilization--which by the 
way, that is a tremendous asset, and I am glad to see that is 
on track to be able to get to that because the basic 
transparency to be able to see it----
    Ms. Murphy. Yes.
    Senator Lankford [continuing]. Is what every American 
assumes we have and we have never had.
    With the utilization, does it actually include utilization 
of the space or just GSA saying this space is rented, some 
Federal agency has rented it, or some Federal agency actually 
using that space? And you know what I mean. There are some 
spaces that are out there----
    Ms. Murphy. Right.
    Senator Lankford [continuing]. That are rented by an 
agency, but they have been empty for decades. But we are still 
paying the rent.
    Ms. Murphy. So we have to work with our tenant agencies to 
get that information, and we are trying to get that 
information. In some cases, we have better information than 
others. I would love to partner with OPM on getting more 
information on where people are.
    Senator Lankford. Yes. That would be a terrific asset for 
all of us because we have to make decisions. You have to make 
decisions on managing property.
    Ms. Murphy. Right.
    Senator Lankford. We have to make decisions in oversight on 
whether the property that is being rented is actually being 
used, and if not, we may need to combine some folks and to be 
able to find good space that is actually less expensive or that 
they do not need to rent at all.
    So I appreciate the cooperation on this, and we will be 
able to work together on it.
    So thank you, Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman, and thank you to 
the nominees for being here today and your willingness to 
serve, and a special thank-you to your families because know 
this is a family affair when people step up to take these jobs. 
So I am very grateful to all of you.
    Mr. Pon, I wanted to start with a couple of questions for 
you. I was grateful for the meeting we had a few weeks ago, and 
during the meeting, we discussed the issue of workforce 
training.
    Mr. Pon. Yes.
    Senator Hassan. As you know, funding for workforce training 
is an easy target when agencies are looking at ways to save 
money. Too often, Federal workforce is viewed as a cost, not as 
an asset, and training dollars are among the first to go. And 
here we are in this quickly evolving knowledge-based digital 
economy where in order for our workers to be effective, but 
also to be retainable in that role, they need to make sure that 
they can be trained in this changing technology and economy.
    So what will you do to ensure there are adequate resources 
across the Federal Government and within OPM to train and 
prepare a knowledge workforce to meet challenges today and in 
the future?
    Mr. Pon. So it is interesting, that question, Senator, 
because we tend to manage money much better than people. We 
have a process, a rigorous process. You have your cost 
accounting managers and your financial planning and analysis. 
Where is the counterpart in the planning of your people?
    In many organizations, whether public or private sector, I 
wanted to make sure that each and every one of the 
organizations that I work with had a human capital plan or a 
resource plan for their people.
    Understanding what knowledge, skills, abilities, and 
experiences you need for executing the mission is very vital, 
but having each and every manager understand who is working 
with them and actually identifying where they are and where 
they need to be and how do we close the gap training, 
identifying that type of need across an agency is fundamental 
for us planning and resourcing them adequately.
    I do believe, and I agree, that the first thing usually to 
go in public sector and private sector is the training budget, 
but I do also believe that people are our number one asset. And 
if you do not invest in their development, you are going to 
have a stagnant workforce.
    We talk about the modernization of the workforce, having to 
focus in on digitization, segmentation, and personalization. 
Well, not many of our workers have actually lived that type of 
experience. So how do we acquire that? How do we train people 
up?
    So that is the type of rigor that I would suggest for 
agencies.
    Senator Hassan. So I have your commitment to really elevate 
the importance of appropriate workforce training across 
agencies?
    Mr. Pon. You do.
    Senator Hassan. Thank you.
    I want to follow up to Mr. Pon on Senator Lankford's 
questions. Another issue we discussed during our meeting was 
the long case review periods at OPM.
    Mr. Pon. Yes.
    Senator Hassan. And my office in State has received just a 
number of requests for help from Granite Staters whose cases 
with OPM, which are often related to really important timely 
issues, such as health insurance coverage, disability, 
retirement, have taken really many months to resolve.
    I really appreciate how hard people are working at OPM and 
how hard our civil servants work when they are processing these 
cases, but I am sure you can understand the frustration our 
constituents feel when they cannot get a human on the phone----
    Mr. Pon. Yes.
    Senator Hassan [continuing]. Or a specific update on their 
status of their inquiry.
    So I know that you expressed willingness in our meeting to 
address this issue, but what steps will you take to ensure that 
OPM cases are treated in a timely way? And at a staffing level, 
how can you guarantee that you have adequate personnel and 
resources in your casework division?
    Mr. Pon. Thank you, Senator, for that question.
    I think the frustration of processing benefits or 
background investigations or even retirement is unacceptable. 
We do need to do a better job in doing that.
    I think digging out of the paper and getting to a digital 
environment where you can have a lot of self-service and tiered 
services, where you can go and seek out the information and 
understand where your status is, is the first step.
    The second step is to make sure that you have tiered 
services that are adequately resourced with the capability and 
capacity to respond to the need and service level.
    If we were to establish service levels for getting back to 
people and resolving issues, that would be a big first step in 
making sure that we are customer driven.
    Senator Hassan. That would be very helpful. I think that 
focus on what you can do now to make sure that you are getting 
back to people, whether it is staff in a congressperson's 
office calling you or whether it is the constituent themselves, 
and then working on the long-term strategies.
    Mr. Rigas, I wanted to touch base with you because in your 
testimony, you reference some of the challenges OPM has faced 
in recent years.
    As you know, in June 2015, OPM announced several security 
breaches that had occurred regarding Federal employees' 
personal data. Just 2 months ago in August 2017, GAO issues a 
report that found that OPM continues to lag in fully 
implementing recommended data security practices that could 
help secure Federal employee information from those kinds of 
crippling cyber-attacks.
    Responding to this ever-evolving issue of cyber threats is 
a constant challenge, and it requires the Federal Government to 
act with the same degree of flexibility and adaptability as 
those who are launching the attacks to.
    Two years of inaction on this front is not going to get the 
job done. In your testimony, you state that if you are 
confirmed, you hope to focus on building on the work already 
undertaken to improve IT at OPM and restore the confidence of 
the public in the agency's ability to safeguard critical data. 
I would like you to just expand on that by describing in more 
detail what steps you plan to take to improve data security 
practices at OPM.
    Mr. Rigas. Thank you, Senator.
    As you mentioned, information technology was one of the 
items referenced in GAO's high-risk report. One of the first 
things I would do, if confirmed, would be to work with the 
internal and external stakeholders involved in the information 
technology area for OPM, and that would include both the Chief 
Information Officer (CIO) and the Chief Information Security 
Officer (CISO) to assess what progress has been made to date, 
what their plans are for ongoing progress, and assess if we 
need to change course, if we are on target, to meet the 
security and data protection needs that I think the Federal 
Government demands and that the public would demand for Federal 
employee data.
    Senator Hassan. Well, thank you for that.
    And I am out of time. Mr. Murphy, I just wanted to thank 
you for meeting with me in my office, and I do not have any 
questions for you at this time. But congratulations on your 
nomination again.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Pon, the Office of Personnel Management both writes 
policies but also sells software to the other agencies. So does 
that create conflicts of interest, and how do you handle those 
conflicts of interest?
    Mr. Pon. Yes. There are certain services that OPM provides, 
and primarily, many of them are Human Resources Information 
Technology (HRIT)-related. So the subject-matter expertise that 
the fine men and women in OPM has, has a particular technical 
skill. Working with the contracting office as well as the 
customer requirements on certain things like USA staffing is an 
example of providing services for the Federal Government.
    I do believe that agencies do have a choice with different 
types of contracting vehicles. With OPM, in particular, I think 
the big differentiator is the technical experience that the 
Office of Personnel Management has.
    Senator Hoeven. So you think that agencies have enough 
discretion so that there is not a conflict there? They can make 
a decision as to which software product they want to use?
    Mr. Pon. That is correct.
    Senator Hoeven. All right.
    Mr. Rigas, this question goes to competition as well, and 
your largest customer is the Department of Defense, provides 
over half of OPM software, solutions, revenue. I guess the 
question, is this a situation where you have kind of a captive 
market, and if so, does that make you truly competitive and 
innovative in the products that you provide to the DOD?
    Mr. Rigas. Thank you, Senator.
    I believe it is important for OPM to have a fair, open, and 
transparent competitive bidding process. If confirmed, I would 
certainly like to work with you and other Members of this 
Committee to address any concerns you might have with regard to 
the primary care that the agency has undertaken.
    One of the first things I would do is, as I sit down with 
each of the program managers to assess where we are and what 
progress needs to be made, figure out what is going on with 
these individual procurements, if there are other competitively 
available providers for these services, and have they submitted 
bids or what led to the situation that you currently described, 
and if there is any action we can take to remediate that.
    Senator Hoeven. I think that is a good answer. I think that 
is important. Outside vendors have to feel like they have a 
fair and competitive shot so that the customer, be it DOD or 
whomever, gets the best product, and that you have to be 
willing to compete in the same way.
    Mr. Rigas. Yes.
    Senator Hoeven. Your background lends itself to the answer 
you just gave and making sure that happens, so I am encouraged 
to hear that.
    Mr. Rigas. Thank you, Senator.
    Senator Hoeven. Ms. Murphy, what challenges do you see with 
GSA from the standpoint of concerns about wasteful spending, 
some outdated practices, backlog of empty real estate? What are 
some of the things that you are going to bring in terms of 
innovation, transparency, accountability, and I guess build 
confidence in GSA and the job that they are doing?
    Ms. Murphy. Thank you very much for the question, Senator.
    Competition in reducing waste and increasing transparency 
are two of the four things I am really hoping to work on at 
GSA.
    Within the Federal Acquisition Service (FAS), which does 
over $50 billion in contracts on behalf of other agencies each 
year, I would like to work to make sure that the ceiling prices 
that are being set for agencies are just the beginning. So we 
set a price on our GSA Schedule contracts. It is, more or less, 
like the rack rate on the back of the hotel room door. It is 
the most you are ever going to pay. We want to make sure that 
GSA's contracting officers and our policies support really 
vigorous competition at the task order level, because that is 
the amount we are actually going to spend, and so we get the 
best deal there, that we get the most competition we can there.
    Part of that also, though, means reducing barriers to entry 
for other companies that want to do business with the Federal 
Government, so we have as many companies and approaches as 
possible as part of that solution.
    It is the same thing on the Federal building side, making 
sure that we are working to identify the best vendors of leased 
space, that we are really competing the contract vehicles when 
we are doing construction. GSA has recently implemented a new 
construction manager-at-risk process to try and reduce the cost 
overruns in those construction contracts. We are working to 
make sure we dispose of property as we identify it in a timely 
fashion, that we streamline the process for disposing of those 
properties.
    Senator Hoeven. Going in there as a manager, how do you do 
that? I mean, do you go out in the field and look at these 
properties and look at the services? I mean, how do you bring 
that kind of innovation to the agency?
    Ms. Murphy. Senator, I think the first thing you do is talk 
to people. You talk to the GSA employees, and we have great 
people at GSA. I have been fortunate enough to spend the last 9 
months there working with a lot of these folks.
    A lot of it also is setting clear direction that we are 
going to put the taxpayer first in every deal. We have a goal 
of reducing the footprint, but if the better deal is to have 
more space, then we go for more space if that truly is a better 
deal.
    That we have clear enforceable goals and that we use 
performance measures and we hold people accountable for meeting 
them, that we look at ways to modernize those schedule 
contracts I was talking about so that the GSA contracting 
professionals are not spending all of their time setting that 
ceiling price but are able to devote more of their time to 
going after that task order pricing.
    Senator Hoeven. In your 9 months that you have been there, 
what has the reaction been, and how do you feel about the 
progress you are making?
    Ms. Murphy. Well, so I have been there as an advisor in the 
last 9 months, but I would say that I have gotten a warm 
reception from GSA. And I think that the new commissioners of 
the Public Building Service and the Federal Acquisition Service 
are very excited about going forward with similar missions.
    Senator Hoeven. Do we have a big issue with the backlog of 
GSA facilities, or do you see that a lot of these or the vast 
majority of these properties are marketable, and that you can 
either rent or fill them or sell them or whatever is required?
    Ms. Murphy. So within GSA's inventory, once a Federal 
agency determines it does not need space anymore, they excess 
it to GSA. GSA then does an assessment of whether another 
Federal agency can use it and, if not a Federal agency, then we 
look at charitable institutions, nonprofits, or State and local 
governments. If not, then and only then, do we actually put it 
up for sale.
    GSA, I think--and I could be wrong on this number--I think 
we have disposed of 37 properties this year. GSA does a pretty 
good job of moving those out, but with the new authorities that 
Congress granted last December, I think we will be able to do 
an even better job.
    Senator Hoeven. OK. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Mr. Pon, so as you know, the Federal Government represents 
the people of the country, and in order to be most effective, 
the workforce of the Federal Government should reflect the look 
of the people that we represent. So I want to ask you a few 
questions about what you have planned, if confirmed, in terms 
of your role to help agencies strengthen diversity among the 
employees in the Federal Government.
    So Executive Order 13583 is called Establishing a 
Coordinated Government-wide Initiative to Promote Diversity and 
Inclusion in the Federal Government Workforce. It was issued 
under the previous Administration. Are you familiar with that?
    Mr. Pon. I have not read the specific text, Senator, but I 
have, in my experience, worked with a lot of diversity and 
inclusion programs.
    Senator Harris. OK. Will you be familiar with it, please, 
and then submit your thoughts about what you can do to pursue 
and continue that policy and what your plans are to strengthen 
diversity among the workforce, and if you can submit that 
information to me, I would appreciate that.
    And when we look at then these numbers, I will tell you 
that while minority groups are underrepresented in the Federal 
workforce, this is especially true of the Senior Executive 
Service. And when we look at the number of Latinos, African 
Americans, Asian, and Native Americans, they make up only 19 
percent of the SES combined. Are you familiar with those 
numbers?
    Mr. Pon. I am, Senator.
    Senator Harris. And what are your thoughts about that?
    Mr. Pon. I think it takes time to make sure that we are 
doing the right practices so that there is a level of an 
inclusion not only from selection standpoint but also the 
candidate pools that we have.
    I understand, if confirmed, studying up on the current 
initiatives that OPM has in promoting women in Science 
Technology Engineering Mathematics (STEM) and making sure that 
those programs are featured, so that we are recruiting proper 
numbers in our source pool, so that managers do not have an 
excuse for saying there is not a qualified candidate of a 
diverse background.
    Senator Harris. And I am glad you mentioned women, which 
are only 33 percent of the SES positions in the Federal 
Government.
    Mr. Pon. Right.
    Senator Harris. So what are your plans specifically for 
addressing this issue and changing these numbers?
    Mr. Pon. Yes. I think, again, it is the candidate pool that 
you can start with. We oftentimes just take for granted--we 
open something up on USAJOBS, an SES position, and just take 
for granted whatever comes in is the pool that you have. It is 
everybody's job to actually recruit. Every manager has to sell 
the mission of the organizations, and if you go into schools 
and places where you can source qualified candidates, that 
makes the government much stronger so that you are getting a 
better pool of candidates, a diverse pool of candidates, and 
the managers eventually will have an opportunity to get the 
best and brightest based upon their qualifications and merit.
    Senator Harris. Thank you.
    And the OPM issued a strategic plan. Are you familiar with 
that, around diversity and inclusion?
    Mr. Pon. I am.
    Senator Harris. And do you commit to reviewing the outline 
and recommendations in full and enforcing and implementing the 
recommendations?
    Mr. Pon. I will.
    Senator Harris. Thank you.
    Then on the issue of Calexico, I would like to speak with 
Ms. Murphy. Calexico, California, which is on the border with 
Mexico--in fact, the other side of that is Mexicali. That is an 
interesting play on the words. The current Calexico West Port 
of Entry (POE) was constructed in 1974. It is outdated and 
badly in need of repair. Wait times for passenger vehicles and 
pedestrians who cross at the Calexico West Port of Entry costs 
the Imperial County, which is the county right there on the 
border--but it costs us as a State and that county, in 
particular, jobs and economic activity and tax revenue. Are you 
aware of this project, the Point of Entry Project there?
    Ms. Murphy. Yes, Senator, I am.
    Senator Harris. And can you tell me what you plan to do 
about addressing the needs of that area and understand, of 
course, the impact as it relates to the people who live in that 
community?
    Ms. Murphy. Yes, Senator. If confirmed, I would like to 
work with you and with the Department of Homeland Security, to 
make sure that we are fully committed to modernizing the border 
crossing station.
    Senator Harris. And do you have some thoughts about how we 
can do that?
    Ms. Murphy. With land ports of entry GSA usually defers 
first to the Department of Homeland Security on what the 
requirements are for the expansion. We work with them to then 
implement the plans that they have. So it is our job to, once 
they have the requirements, go in and implement it quickly and 
efficiently.
    Senator Harris. OK. Thank you.
    So I look forward to working with you, if confirmed, on 
that issue. It is a big priority for my State.
    And then back to you, Mr. Pon. On October 4, the Attorney 
General (AG) Jeff Sessions issued a memo stating that Title 
VII's prohibition on sex discrimination encompasses 
discrimination--which includes discrimination between men and 
women but does not encompass discrimination based on gender 
identity, per se--this is what he said--including transgender 
status. This was followed by an amicus brief filed by the 
Department of Justice under Sessions on July 27, which said 
that Title VII does not reach discrimination based on sexual 
orientation.
    Notwithstanding these pronouncements, the LGBT Federal 
employees, in fact, have a right to bring claims under sexual 
orientation and gender identity discrimination through the 
Federal Equal Employment Opportunity (EEO).
    My question for you is that previously OPM provided 
training and resources to agencies and employees on how to 
prevent and detect and respond to discrimination based on 
sexual orientation and gender identity. Do you commit to 
continuing doing that work?
    Mr. Pon. If confirmed, I would take a look at what the 
current practices are and enforce the law as it stands right 
now. My job is to make sure that we implement and surround 
implementation with training and development, so agencies can 
uphold the law.
    Senator Harris. Do you understand you would not be in 
violation of the law to continue the practice of ensuring that 
Federal employees are trained to avoid, to detect, and to 
report discrimination based on gender identity or sexual 
orientation?
    Mr. Pon. Senator, if confirmed, I would make sure that I 
understand the law and enforce the law.
    Senator Harris. What do you believe the law to be right now 
as it relates to discrimination against people based on gender 
identity or sexual orientation?
    Mr. Pon. So, as you have indicated, training and 
development for making sure that we do not discriminate based 
on sexual orientation or gender identity is the current law.
    Senator Harris. Thank you.
    Chairman Johnson. Thank you, Senator Harris.
    I want to go back to a question that Senator Hassan asked 
of Mr. Rigas and direct this at Dr. Pon. After the OPM breach, 
hack, we held a hearing, and I held a stack of about seven or 
eight of these that the entire Federal Information Security 
Modernization Act audit, it was the one from November 2016.
    Mr. Pon. Yes.
    Chairman Johnson. They almost could have cut-and-paste the 
summary, but let me just read some of the conclusions: ``This 
audit report again communicates a material weakness related to 
OPM's Security Assessment and Authorization Program. The audit 
report also reissues a significant deficiency related to OPM's 
information security management structure. There has been a 
significant regression in OPM's compliance with FISMA 
requirements as the agency failed to meet requirements that it 
had successfully met in prior years.''
    They do acknowledge that OPM has played a significant 
effort toward filling these positions that you talked about, 
the number of people who have been hired in cybersecurity, but 
simply having the staff does not guarantee that the team can 
effectively manage information security.
    This has been a big problem. It has been a big problem for 
years. It has not been adequately addressed. So I just wanted 
to give you the opportunity to kind of lay out what your game 
plan is going to be to finally fix this after literally more 
than a decade of these warnings, with very little being done, 
and of course, then we saw the massive loss of information.
    Mr. Pon. Thank you, Senator, for your question. This is my 
number one priority to make sure that we have security, not 
only information security, but personal security, making sure 
that we have a safe workplace.
    In regards to the report, I will tell you that on my watch, 
we will make sure that we not only have the qualified people, 
but we have a plan to execute and deter the risks that we have. 
We have a designed threat analysis. I want to make sure that 
those are robust so we can prioritize and alert people on what 
those risks are, so we have a game plan for closing those gaps.
    It is unacceptable to me to have people that are not 
trained in the current ways in which we protect our data, 
offensive and defensively. These things are moving. The bad 
actors are getting worse, and the level of skill trying to 
defend our systems against those things, we need to up our game 
and make sure that we have the right people, but also we have 
the right plans and mitigation mechanisms for doing that. And I 
plan to share that with the Committee, IG, and GAO with those 
practices that emerge.
    Chairman Johnson. We will get into a report within the 
month. I will ask once you are in the position and have time to 
review that, I want to get your response to the Committee in 
terms of how you are going to address the most recent report.
    The Office of the Inspector General (OIG), the GAO, these 
are important organizations to this Committee. They oftentimes 
are frustrated in their ability to get the proper documentation 
to do their work. So I am going to ask each of you just a 
simple response, yes or no. Will you promise and commit to work 
with the Office of Inspectors General and GAO to ensure access 
to the documents they are going to need to perform their 
functions?
    Mr. Pon. I will.
    Mr. Rigas. I will.
    Ms. Murphy. Yes, I will.
    Chairman Johnson. OK. Thank you.
    I want to reinforce, I want to underscore what Senator 
Lankford was talking about. We really do have a Committee that 
operates in a very bipartisan fashion, trying to solve 
problems, maybe not massive ones, but kind of how do you eat an 
elephant, one bite at a time. So we have a pretty good track 
record of identifying a particular problem, defining it 
properly, and then coming up with bipartisan solutions for 
that. But we need your help.
    And so what Senator Lankford talked about is there are 
certain things you can do within your authority, certain things 
you need legislative changes to do. We are going to want to 
help you do that.
    So what I am asking you to do is help us help you. Do not 
hesitate to contact this Committee for those types of 
legislative solutions. We can react very quickly, I think very 
effectively, to get those things passed. So I just want to 
underscore that.
    And really to kind of close out the hearing, I want to 
thank you and again your families. These are important 
positions. You are going to be very busy people, and so I 
appreciate your willingness to serve this Nation, to sacrifice, 
and your families' willingness to probably see a little bit 
less of you as you undertake this serious responsibility.
    The nominees have made financial disclosures\1\ and 
provided responses to biographical and prehearing questions 
submitted by the Committee.\2\ Without objection, this 
information will be made part of the hearing record,\1\ with 
the exception of financial data, which are on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information of Mr. Pon appears in the Appendix on page 42.
    \2\ The information of Mr. Rigas appears in the Appendix on page 
115.
    \1\ The information of Ms. Murphy appears in the Appenidx on page 
169.
---------------------------------------------------------------------------
    Chairman Johnson. The hearing record will remain open until 
noon tomorrow, October 19, for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
